<html>
<title> - [H.A.S.C. No. 111-25]SPACE AND U.S. SECURITY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                     

                         [H.A.S.C. No. 111-25]

                        SPACE AND U.S. SECURITY

                               __________

                                HEARING

                               BEFORE THE

                     STRATEGIC FORCES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 18, 2009




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>







                  U.S. GOVERNMENT PRINTING OFFICE
51-760                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                     STRATEGIC FORCES SUBCOMMITTEE

                ELLEN O. TAUSCHER, California, Chairman
JOHN SPRATT, South Carolina          MICHAEL TURNER, Ohio
LORETTA SANCHEZ, California          HOWARD P. ``BUCK'' McKEON, 
ROBERT ANDREWS, New Jersey               California
JAMES R. LANGEVIN, Rhode Island      MAC THORNBERRY, Texas
RICK LARSEN, Washington              TRENT FRANKS, Arizona
MARTIN HEINRICH, New Mexico          DOUG LAMBORN, Colorado
                Bob DeGrasse, Professional Staff Member
                 Kari Bingen, Professional Staff Member
                      Zach Steacy, Staff Assistant












                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Wednesday, March 18, 2009, Space and U.S. Security...............     1

Appendix:

Wednesday, March 18, 2009........................................    29
                              ----------                              

                       WEDNESDAY, MARCH 18, 2009
                        SPACE AND U.S. SECURITY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Tauscher, Hon. Ellen O., a Representative from California, 
  Chairman, Strategic Forces Subcommittee........................     1
Turner, Hon. Michael, a Representative from Ohio, Ranking Member, 
  Strategic Forces Subcommittee..................................     2

                               WITNESSES

Armor, Maj. Gen. James, USAF (Ret.), Owner and CEO, The Armor 
  Group, LLC.....................................................     9
Krepon, Michael, Co-founder, The Henry L. Stimson Center.........     7
MacDonald, Bruce W., Author of Recent Council on Foreign 
  Relations Study on China, Space Weapons, and U.S. Security.....     4

                                APPENDIX

Prepared Statements:

    Armor, Maj. Gen. James.......................................    56
    Krepon, Michael..............................................    45
    MacDonald, Bruce W...........................................    33

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
 
                        SPACE AND U.S. SECURITY

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                             Strategic Forces Subcommittee,
                         Washington, DC, Wednesday, March 18, 2009.
    The subcommittee met, pursuant to call, at 1:00 p.m., in 
room 2212, Rayburn House Office Building, Hon. Ellen O. 
Tauscher (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ELLEN O. TAUSCHER, A REPRESENTATIVE 
    FROM CALIFORNIA, CHAIRMAN, STRATEGIC FORCES SUBCOMMITTEE

    Ms. Tauscher. Good afternoon. This hearing of the Strategic 
Forces Subcommittee will come to order.
    Today, in open session, we will review three broad issues 
related to space and U.S. security. First, do we have the right 
policy to ensure the security of our space assets? Second, do 
we have the right investment strategy? And finally, what role 
can diplomacy play in ensuring the security of our space 
assets?
    We have three nongovernmental witnesses with us today. Each 
participated in a special Council on Foreign Relations (CFR) 
study on these subjects commissioned not long after the Chinese 
anti-satellite (ASAT) test.
    First, Mr. Bruce MacDonald, the author of the Council 
study, is here with us. From 1995 to 1999, he was Assistant 
Director for National Security at the White House Office of 
Science and Technology Policy, as well as Senior Director for 
Science and Technology on the National Security Council (NSC) 
staff. He is also a former House Armed Services Committee 
staffer.
    Next, Mr. Michael Krepon, co-founder of the Henry L. 
Stimson Center. Mr. Krepon is a longtime advocate for rules of 
the road in space. He is also a diplomat scholar at the 
University of Virginia, where he teaches in the politics 
department.
    Finally, retired Air Force Major General James Armor, owner 
and Chief Executive Officer (CEO) of the Armor Group. General 
Armor's last job in the military was as Director of the 
National Security Space Office. He also served as the head of 
the National Reconnaissance Office's (NRO's) Signals 
Intelligence (SIGINT) operation.
    I want to welcome each of our distinguished witnesses. It 
is a pleasure to have you before the subcommittee today.
    This subcommittee has been eager to have a public 
discussion of these complicated, often classified subjects, and 
the Council report provides just that opportunity.
    I was particularly impressed by the depth and breadth of 
the advisory committee for this report. The committee included 
Admiral Dennis C. Blair, now the Director of National 
Intelligence (DNI); Air Force Lieutenant General David A. 
Deptula; Mr. Keith R. Hall, former Director of the National 
Reconnaissance Office; and Ms. Theresa Hitchens of the Center 
for Defense Information.
    Before we begin, I wanted to highlight one report 
recommendation from each of the three areas we will discuss 
today.
    In the policy arena, the Council report recommends that the 
President and the National Security Council should modify 
national space policy to allow negotiated restrictions on the 
basis of verifiability and U.S. interests.
    In the programmatic realm, the report states that the 
Department of Defense (DOD) should evaluate all future space 
programs and initiatives in terms of their contribution to 
stability and deterrence in addition to its other criteria, and 
place greater emphasis on survivable ground-based offensive 
capabilities with reversible effects than on space-based 
capabilities.
    In the diplomatic arena, the report recommends that the 
State Department and DOD should expand dialogue with China to 
establish rules of the road, codes of conduct, and other 
confidence-building measures, as well as to build upon current 
military-to-military dialogue on space issues.
    As you can see, the Council report has given us plenty to 
talk about this afternoon.
    With that, let us begin, and let me turn to my very good 
friend and our distinguished Ranking Member from Ohio, Mr. 
Turner, for any comments he may have.

 STATEMENT OF HON. MICHAEL TURNER, A REPRESENTATIVE FROM OHIO, 
         RANKING MEMBER, STRATEGIC FORCES SUBCOMMITTEE

    Mr. Turner. Thank you, Madam Chairman.
    So many times when we have hearings or issues that we are 
looking at, and it is always in context of the news of the day, 
and I feel like I can't go past the news of the day without 
recognizing that the Associated Press (AP) is reporting that 
the Obama Administration is indicating its choice for Under 
Secretary of State for Arms Control and International Security 
to be none other than our own Chairman, Ellen Tauscher. We wish 
her well in that, and I congratulate you on that.
    Ms. Tauscher. I am going to send your tax returns to the 
Federal Bureau of Investigation (FBI), if you don't mind.
    Mr. Turner. Well, you certainly have a tremendous amount of 
experience that we have as evident in this subcommittee, and we 
wish you well in that.
    Ms. Tauscher. Thank you very much.
    Mr. Turner. With that, then, I also want to thank Mr. 
MacDonald, Mr. Krepon, and General Armor for being with us 
today. The Council of Foreign Relations report, which forms the 
basis of our discussion today, is a first-rate product, and I 
want to commend Mr. MacDonald for his work on it.
    Today's discussion focuses on the policies and capabilities 
that best provide for the security of our space assets. The 
current space policy, for the first time, recognized space 
assets as vital to U.S. national interests. Space is critical 
to modern-day military operations and contributes over $200 
billion annually to the economy.
    This subcommittee, largely in part due to the efforts of my 
predecessor Mr. Everett and our Chair, soon to be Under 
Secretary, sought to promote a greater understanding about the 
importance of space assets and the potential consequences of 
their loss.
    An array of potential threats can hold our Nation's space 
capabilities at risk and degrade U.S. advantages in space. A 
prime example, according to the Pentagon's annual China 
military report, is China's pursuit of a multidimensional 
program to limit or prevent the use of space-based assets by 
its potential adversaries. This includes the direct-ascent ASAT 
China tested in 2007.
    The expansion in the number of space-faring nations and 
satellites launched each year also increases the risk of 
accidental collisions, such as the one we saw last month 
between a commercial satellite and a Russian spacecraft.
    We have a nexus of challenges before us. First and 
foremost, I believe we have considerable gaps and shortfalls in 
space intelligence and in our knowledge of foreign space 
capabilities and intent. Robust space intelligence is a 
prerequisite for Space Situational Awareness (SSA) and 
protection, and it also greatly influences decisions made about 
our space policies and posture.
    I would ask our witnesses to provide their assessment of 
our Nation's space intelligence capabilities, and also any 
thoughts on whether our intelligence enterprise is adequately 
organized and managed to fulfill future capabilities and 
challenges in this area.
    Second, what changes in policy do you recommend to increase 
our security in space? I am particularly interested in how we 
apply the model of deterrence to space. What capabilities will 
we need? How would we demonstrate the credibility of such a 
deterrent? And how would we manage escalation when the U.S. may 
have more to lose than a potential adversary?
    Third, a greater emphasis on Space Situational Awareness 
and space protection capabilities has been strongly supported 
by this committee. In the 2008 defense bill, we required the 
defense Intelligence Communities (IC) to develop a space 
protection strategy. In your view, what are the next steps to 
implement the strategy, and where do we still have gaps and 
shortfalls?
    Fourth, our current national security space architecture is 
comprised of relatively few, and very complex monolithic 
systems. The loss of one satellite, whether by intent or 
accident, could have widespread consequences for battlefield 
users reliant on its capabilities. Do you have thoughts on how 
we might change our acquisition strategies to increase the 
survivability and resiliency of our space architecture?
    And lastly, securing our interests in space requires a 
``whole of government'' approach that also includes diplomatic 
efforts, as highlighted in Mr. MacDonald's report; however, 
space is a challenging area that requires balancing our desire 
to protect our most sensitive cutting-edge technologies with 
promoting greater international cooperation in space. Often 
these are complementary, but sometimes they are not. What space 
security topics are the most promising candidates for greater 
diplomatic efforts? We appreciate your comments there.
    The desire to seek a space-weapons ban treaty was featured 
as part of President Obama's defense agenda. Defining space 
weapons and establishing an effective verification regime are 
incredibly problematic. I also remain skeptical that China, in 
particular, would halt its space programs, when reports of 
their across-the-board counterspace capabilities and 
investments suggest otherwise.
    An alternative approach that establishes rules of the road 
has been suggested by one of our witness. Collision avoidance 
may be a logical first step; however, I would like a greater 
understanding of what these would entail, and would also ask 
that you consult with our military commanders to elicit their 
views. My immediate concern is that we do not disadvantage U.S. 
space capabilities.
    One also has to consider how much transparency about space 
assets we want. Imagine if we were required to report on the 
location status of our nuclear submarines.
    Thank you for being with us today and providing your 
critical thoughts on the issue of space security. I look 
forward to a candid discussion and thank you for being here. 
And thank you, Madam Chair, for your leadership.
    Ms. Tauscher. Thank you very much, Mr. Turner, for those 
kind remarks, and thank you for your statement.
    We will begin with Mr. MacDonald. Bruce, the floor is 
yours, as we received your formal statement. We look forward to 
brief remarks, and we entered your statement in the record, and 
the floor is yours.

 STATEMENT OF BRUCE W. MACDONALD, AUTHOR OF RECENT COUNCIL ON 
   FOREIGN RELATIONS STUDY ON CHINA, SPACE WEAPONS, AND U.S. 
                            SECURITY

    Mr. MacDonald. Thank you very much, Madam Chair, Ranking 
Member Turner, and members of the subcommittee. It is really a 
privilege for me to be here today to talk about this vital 
issue.
    I want to make clear at the outset, I am speaking purely in 
a private capacity and not on behalf of the Strategic Posture 
Review Commission, U.S. Institute of Peace, or the Council on 
Foreign Relations.
    The subcommittee has posed three excellent questions for 
this hearing: One--and I will give short answers to each and 
then elaborate just a bit--do we have the right national policy 
to ensure the security of our space assets? I think our policy 
is deficient in doctrine and strategy, and needs urgent 
attention to avoid major problems.
    Do we have the right investment strategy for protecting and 
defending critical space assets? Briefly, I have only modest 
confidence in this, but I have to say mostly because a few of 
the details of the strategy are publicly known, so it is hard 
for me to say.
    What role can diplomacy play in assuring the security of 
our space assets? I think diplomacy has a vital role to be 
played, but unfortunately it alone cannot solve our space 
issues.
    The rivers of information and services that our space 
assets provide allow our decisionmakers and weapons both to be 
more effective than ever before, giving us vital advantages in 
our economy and our conventional and strategic nuclear 
strength.
    The threats to our space assets come in many forms, some 
hostile and some not. I have often said that Murphy's Law and 
Mother Nature pose some of the biggest threats that we can face 
sometimes in a lot of areas. One of the biggest threats is what 
we just don't know about objects in space, the intentions of 
those who put them there, and the very strategic landscape of 
space itself.
    Our overall goal in space, I believe, should be space 
stability. We have an overriding interest in maintaining the 
function of our space assets and to see that the huge benefits 
they provide are always there. But our space assets are exposed 
and fragile. They can't run, they can't hide, they can't defend 
themselves, and we depend on them more so than any other 
country. And these assets face three major and growing threats.
    One, with the proliferation of space and other 
technologies, especially anti-satellite capability demonstrated 
two years ago, China could exploit our space dependence to 
seriously threaten our space assets within a decade if it chose 
to do so.
    Second, space traffic is heavier than it has ever been and 
getting more so, but there is no Federal Aviation 
Administration (FAA) for space.
    And third, space debris poses a growing threat to all space 
assets, as the recent collision between the U.S. satellite and 
an old Russian Cosmos illustrates. At current rates of debris 
accumulation, the debris threat could grow 1,200 percent over 
the next 25 years. I am concerned that current space policy 
does not answer key stability issues.
    In 2006, the new policy declared for the first time that 
U.S. space assets are a vital national interest. This policy 
reserves the right to deny adversaries the use of space 
capabilities hostile to U.S. national interests. But attacking 
other space capabilities invites attacks on our own vital 
national interests, we have said. This, to me, is 
contradictory. Why would we want to threaten actions that 
invite retaliation against our vital national interests where 
we have more at stake than our adversaries? But this 
contradiction is never explained.
    It could make sense if our space doctrine seeks only to 
deter attacks, not initiate them, but our policy says not a 
word on this. There is inherent risk of strategic and crisis 
space instability in the next decade or so, it seems to me, if 
we are not careful.
    I am one who believes that the United States can and should 
remain preeminent in space, but I believe we are currently 
incautious in our military space policy. The United States 
needs a space protection strategy that focuses on stability, 
deterrence, and a space architecture with backups in case we 
lose services.
    Now, the difficult question about offensive space 
capabilities in space. If it is possible to establish a space 
regime where no one had offensive space capability, we should 
certainly do so. If we can maintain space deterrence by other 
than offensive means, we should certainly do so. We must think 
long and hard, I think, before deploying space offense. But if 
no alternative to it exists, then we should develop some 
offensive capability, but in a deterrence context.
    The United States and China, and to some extent Russia as 
well, have already crossed the space Rubicon of sorts. Anti-
satellite capabilities already developed cannot be uninvented, 
and missile defense with inherent anti-satellite capabilities 
is here to stay. U.S. space capabilities must be preserved and, 
while defensive steps can help, and we should distribute our 
space capabilities across many more platforms to reduce the 
vulnerability of any one, that may not be enough.
    We must be careful, though, as we acquire offensive 
capabilities, not to create a self-fulfilling prophecy, 
stimulating the very threat that worries us most. Above all, we 
should escape the space policy and doctrinal vacuum I believe 
we are now in, where as result it seems that our space 
acquisition seems to shape our policy, rather than our policy 
shaping acquisition. We should seek a posture not of space 
dominance, but of space preeminence, which would assure that we 
remain the space leader with more advanced space capabilities 
than anyone. We would continue to derive more military and 
economic benefit from space than others, and we would leverage 
this preeminence in better weapons, better intelligence and, I 
would argue most of all, better military decision-making made 
possible by the superior space-enabled information and 
communications that we get.
    I saw a while back that General Tom Moorman, the retired 
Air Force Vice Chief of Staff, said that in addition to 
planning and programs, it is important to encourage a debate on 
space power to include development of a space deterrent theory. 
We need something similar to the intellectual ferment that 
surrounded nuclear deterrence. I think General Moorman, 
unfortunately, confirms here that this kind of thinking is not 
happening today. So we are drifting into an increasingly 
unstable space environment.
    Another major drawback of our policy is its rejection of 
space arms control. The past few years the United States was 
alone in the world in opposing space arms control issues. There 
was one vote in the United Nations where the vote was 162 to 1, 
and we were the 1. All of our North Atlantic Treaty 
Organization (NATO) allies were on the other side. This allowed 
Russia and China to credibly mischaracterize our stance as 
hostile.
    Diplomacy and arms control alone cannot solve our space 
problems, but they can help. Our space arms control allergy 
should end. Review of space diplomacy and arms control should 
be an Administration priority. One option that deserves special 
attention is the ban on debris-producing space actions, 
especially kinetic energy anti-satellite tests.
    In conclusion, we are entering a new era in space, but we 
don't seem to understand its strategic landscape, so we are 
stumbling into the future. Let us take steps now to reduce the 
risks that are coming right at us. Thank you.
    Ms. Tauscher. Thank you, Mr. MacDonald.
    [The prepared statement of Mr. MacDonald can be found in 
the Appendix on page 33.]
    Ms. Tauscher. Mr. Krepon, the floor is yours.

 STATEMENT OF MICHAEL KREPON, CO-FOUNDER, THE HENRY L. STIMSON 
                             CENTER

    Mr. Krepon. Madam Chairman, thank you for convening us.
    My quick answers to your three hard questions: I don't 
think we have a sound strategy now. There are some missing 
pieces, and I will talk about one of them.
    I am not that well qualified to answer your second 
important question about an investment strategy, but General 
Armor is well qualified to answer that question, and the 
answers he has come up with make a whole lot of sense to me.
    And the third question, the role of diplomacy, is the one I 
really want to focus on.
    I should say I spent a fair amount of time in my youth in 
this room and learned a lot here, but you sure don't look like 
L. Mendel Rivers.
    Ms. Tauscher. Thank you.
    Mr. Krepon. Satellites are as vulnerable as they are 
invaluable, and are becoming more vulnerable and more 
invaluable all the time. So how do we gain confidence that 
these essential satellites will be available when needed?
    No satellite has been damaged or destroyed in a crisis or 
in conflict yet. And so, if and when this happens, it is going 
to be a big event, and it is most likely not going to be an 
isolated event. Warfare in space is likely to be accompanied by 
warfare on the ground. The U.S. will still win if our space 
assets are damaged, but victory will be very costly, and there 
will be huge collateral damage to the people we are fighting.
    So, put another way, everybody suffers if warfare in space 
occurs, including all major powers that have assets in space. 
And if there is uncontrolled escalation as a result of warfare 
in space, then the losses will be incalculable.
    Many deterrent strategists--and, Mr. Turner, this goes to 
your question about deterrence--there are some really smart 
people who worked on deterrence and nuclear deterrence, and 
they came up with library shelves' worth of books on escalation 
control and escalation dominance and, fortunately, none of 
these theories were tested. But, at least to me, these plans 
were not very convincing.
    And so, I ask you, how much trust can you and the members 
of this subcommittee place on plans for escalation control and 
escalation dominance in space when it is so easy to mess up 
space, or at least parts of it, and they happen to be the parts 
we care about the most?
    So, shooting our way out of this dilemma of satellite 
vulnerability, it is a last option, and even then it may not be 
a wise option, in my view. But that means we still have to 
deter unwise decisions by other folks to start this game going. 
And so how do we best deter attacks on U.S. satellites? Our 
experience with nuclear deterrence isn't the best guide.
    To signal deterrence--nuclear deterrence--we and the 
Soviets tested on the average of one nuclear weapon a week, 
from the Cuban missile crisis to the fall of the Berlin Wall, 
to signal deterrence. And to signal deterrence, we and they 
deployed large numbers of weapons and launches ready for use on 
short order. Now is this what we want for space? To deter 
somebody else in space?
    Deterring warfare in space has taken very little effort so 
far. There have been several dozen anti-satellite tests during 
the whole history of the space age, just a handful of tests 
with destructive effect creating debris fields. Just a handful. 
Unfortunately, two of these tests have happened pretty 
recently. The Chinese test; a U.S. test, which was not a 
debris-causing event, but it was using a satellite for target 
practice; and we haven't heard from the Russians, and we may 
hear from the Russians.
    So a small number of dedicated anti-satellite weapons have 
been deployed in the past during the Cold War, but they were 
mothballed. They weren't very operationally useful. And our 
military, and even the Soviet military, didn't put too much 
stock in these weapons.
    In my view, one reason why superpower competition didn't 
extend very far with dedicated anti-satellite weapons and ASAT 
tests is because they were not needed. We, and they, had so 
many different ways to mess up satellites using capability that 
was designed for other purposes. That is still the case. We 
don't need to use satellites for target practice to convince 
other folks that we have the means today to affect their 
satellites if they mess with ours.
    I think another reason why we and the Soviets didn't go so 
far down this path was because these satellites then, as now, 
are connected to nuclear forces. And do you really want to open 
that Pandora's box?
    So I actually have some confidence that, looking forward, 
we can again avoid the use of weapons against satellites during 
crisis or in wartime, which would vastly be to our advantage. I 
think we can do this.
    I don't think we need to carry out more ASAT tests to 
reinforce a deterrence message. But we are missing a diplomatic 
piece, because remember, during the Cold War, deterrence, which 
was a clenched fist, also needed reassurance, which was what we 
then called arms control. And deterrence without reassurance 
makes people very uneasy. And not just abroad, but also at 
home.
    So how do we fit these two pieces together? Our primary 
enemy up there is debris. Debris does not recognize U.S. 
preeminence in space. It doesn't. Debris is our enemy. Debris 
is also the enemy of other major space-faring nations. This 
problem we just had with the International Space Station, with 
three spacefarers scrambling into an escape module, we are 
going to see this again. It is going to happen.
    We have actually lost a shuttle because of debris, a 
different kind of debris, the debris from the foam on an 
external fuel tank which punctured the Columbia, which we found 
out about on reentry. But that is a different kind of a 
problem, but debris is going to threaten manned space 
operations to a much greater extent, and our satellites that 
are essential for our warfighters.
    So, two ideas for you to consider about debris. One is a 
very narrow-banded treaty that would be a verifiable treaty 
that bans destructive methods against man-made space objects. 
Nothing in this world is totally verifiable, but a ban against 
destructive methods which create debris fields is something we 
can see. And since the more debris that is up there, the more 
disadvantaged we become, but also the more disadvantaged 
everybody becomes who relies on satellites. This one could have 
traction. It could have traction. I would ask to you consider 
this.
    The second possibility for you to consider is a code of 
conduct that would have one of its provisions pledges against 
harmful interference against space objects--space objects, the 
satellites themselves. A code of conduct like the Incidents at 
Sea Agreement that our Navy follows, or the Dangerous Military 
Practices Agreement that our Army and our Air Force follows, 
they are rules of the road. You know, the rules in peacetime 
are different from the rules in wartime; but even in war, there 
are some rules that are in our advantage to follow.
    And I would urge you to think long and hard about the 
diplomatic piece that deals with this debris problem, which is 
a clear and present danger to our preeminence in space.
    Thank you, Madam Chairman.
    Ms. Tauscher. Thank you, Mr. Krepon.
    [The prepared statement of Mr. Krepon can be found in the 
Appendix on page 45.]
    Ms. Tauscher. General Armor, the floor is yours.

STATEMENT OF MAJ. GEN. JAMES ARMOR, USAF (RET.), OWNER AND CEO, 
                      THE ARMOR GROUP, LLC

    General Armor. Madam Chairwoman, Ranking Member Turner, 
members of the subcommittee, I am very pleased to be here today 
to testify on the vital issue of space and U.S. security. I am 
also happy to be at the table with two very thoughtful and far 
more experienced and well-spoken policy professionals, Mr. 
Bruce MacDonald, with whom I had the privilege of working on 
the subject report, and Mr. Krepon, who I have had some 
edifying discussions both here and abroad on space treaties and 
rules of the road.
    Today, I am speaking purely in a private capacity. My 
comments do not represent the views of the United States Air 
Force, with which I proudly served for 34 years, or any of my 
current professional affiliations.
    I understand today's hearing is about space security, but I 
want to take a step back and put a broader context on the state 
of the United States space program and motivate why today's 
hearing is so important.
    As my fellow witnesses have pointed out, the U.S. is 
exquisitely dependent on space. But it is not just for 
warfighting and intelligence, it is for economic well-being, 
our technological vitality, and our international standing and 
leadership. This bears repeating often because, while the U.S. 
currently leads the world in space, there are numerous problems 
other than simple security threats that jeopardize our 
continued leadership.
    We face near-term mission gaps in our important space 
capabilities, both military and civil. Our space industry and 
workforce is losing its competitive edge. Our engagement and 
influence in international space activities has declined, and 
there is widespread program overreach.
    In many respects, I think all of the Nation's space sectors 
are in worse condition today than they were a decade or more 
ago. To a point, as our security and well-being has grown more 
reliant on space capabilities, they have become increasingly 
vulnerable to breakdown and disruption, as well as to attack. 
It is with this sense of urgency that I now return to today's 
timely discussion about space security.
    You have my written testimony, so let me just summarize the 
main points, briefly addressing each of the three broad issues 
that you stated in your invitation.
    While I think I am more in agreement with Mr. MacDonald 
than it will on the surface appear, do we have the right 
national policy to assure security of our space assets? I think 
the answer is fundamentally yes, we do. Since the beginning of 
the space age, each President has issued a national space 
policy, and each policy has been remarkably consistent in its 
broad goals. The space policy issued in October 2006 gave me, 
as a military and intelligence space professional, the policy 
guidance I needed, and it was totally consistent with policies 
from earlier Administrations.
    However, I must acknowledge that the rest of the world 
clearly thought its language quite provocative, and it became a 
major distraction to any positive discussions on any of a 
number of space issues that I engaged in. I, therefore, think 
we might generally benefit from a change in tone in the written 
policy, and I fully expect the Obama Administration, typical of 
every new Administration, to do just that. But I don't think 
the fundamental policy objectives will or need to change.
    The real problem is not the policy, it is the lack of means 
to implement the policy. We are missing a national space 
strategy to define the means and set the priorities among those 
policy objectives, and we are missing a governance structure 
for implementation and oversight of that policy.
    During last year's campaign, President Obama discussed the 
need for a National Space Council, and I think that is an 
important decision. The Administration needs to establish an 
effective White House focal point and apparatus within the 
Executive Office of the President, such as the Space Council, 
to actively establish direction, set priorities, provide 
management oversight, and coordinate actions across the 
agencies. Good policy is not self-actualizing. A national space 
strategy, and leadership and oversight mechanism are needed.
    I must also add, Madam Chairwoman, that the Congress shares 
many of the same stovepipes in its committee structure across 
the space sectors and technical disciplines, and I might 
recommend that you seriously consider reviving a bipartisan, 
bicameral Congressional Space Caucus to promote cross-committee 
space discussions.
    The second issue is, do we have the right investment 
strategy for protecting and defending critical space assets and 
capabilities? No, I don't believe we do. Up to now, we have 
designed and built our space capabilities assuming space is, 
essentially, a sanctuary. But in the last 15 years, space has 
become both a contested and a competitive domain with a 
blossoming number of space-faring entities and potential 
threats, both intentional, like China's ASAT, and 
unintentional, like spectral interference and debris.
    My answer for needed investment boils down to three 
interrelated recommendations. Number one, Space Situational 
Awareness. I think we are in great agreement there. Our current 
space surveillance network is not fully chartered or resourced 
to support civil, commercial and allied operations. The Space 
Situational Awareness system that the U.S. needs is one that is 
capable of prompt and unequivocal attribution of any space 
incident to a cause or agent, whether that be something bad or 
just bad space weather that day. This includes not only the 
orbital elements, but satellite operating status, space weather 
conditions, spectral interference, debris cognizance, and more.
    Closely related to Space Situational Awareness is the need 
for foreign space intelligence. And I heard Mr. Turner bring 
this up. The U.S. gave us most of its space intelligence 
capability in the 1990s, and it requires significant 
reinvestment. I watched it fade, and it was a heartbreaking 
thing to see those professionals disappear over the decade.
    The capability for situational awareness with attribution 
is the basis of any international discussions about the space 
environment, debris, space operating conventions, or rules of 
the road. It is also foundational to any space deterrent regime 
that we might discuss.
    The second investment shortfall is our current satellite 
architectures. Every critical space system and support 
infrastructure, civil and military, needs to be recapitalized 
to ensure that it can operate in a contested domain, at least 
to the extent that it would be needed during a crisis. There is 
no silver bullet here. There is a number of good options, small 
satellites, mixed space and terrestrial systems. There is good 
protection technology in some cases and many others.
    Each constellation needs to develop its own approach, but 
it needs to do so in the context of an integrated national 
space strategy, which we don't really have, and sound 
assessment of specific natural and man-made threats by space 
intelligence.
    I may surprise you here, but the third vital investment 
need is for the commercial space segment. As a 34-year national 
security space professional, I am not really willing to 
compromise U.S. security but, as a student of history, I am 
convinced that a robust commercial space regime will enhance 
both global stability and U.S. security.
    Mahan's famous theory of seapower was, fundamentally, not 
about battleships; it was about sea lines of commerce and 
maritime industry. Therefore, I recommend direct investment and 
space technology and other incentives toward growing a robust 
U.S. commercial space industry. I believe an essential part of 
this is to begin making progress toward a space traffic 
management system. Currently, however, there is no organization 
assigned responsibility for space traffic management.
    The Air Force operates a space surveillance system. The FAA 
Commercial Transportation Office grants launch and reentry 
licenses, the Federal Communications Commission (FCC) grants 
orbital location and spectrum, and there are other 
organizations as well. So joint study by these agencies to 
develop an investment framework for a space traffic management 
system might be useful, and I would be happy to answer any more 
questions you might have on that.
    Working toward a commercially secure space operating 
environment is an opportunity for U.S. global leadership that 
could address significant portions of space security, and it 
will let me segue back to the committee's third and final 
question, the role of diplomacy.
    I think diplomacy plays an essential role in ensuring the 
security of our space assets and in global U.S. space 
leadership. The U.S. must be actively engaged in discussions at 
all levels if it expects to help set a productive agenda. But, 
as Mr. MacDonald pointed out, diplomacy and arms control 
cannot, by themselves, solve all of our space security 
problems. So I would recommend that U.S. space diplomacy have 
three features.
    The first one is just set a good example and positive 
precedents in space. Now, note, this implies that the U.S. is 
actively conducting the full range of space activities. You 
can't really set a good example from the bench.
    The second is to engage in wider discussions about space 
rules of the road, but be forthright about limiting 
expectations on unverifiable agreements that might 
unnecessarily restrain both space commerce or U.S. civil and 
national security freedom of action.
    Finally, third, help establish a concrete foundation of 
technical standards and operating protocols that will encourage 
a safe, legal space operating regime. I believe the most 
productive near-term effort is being done by all the major 
space agencies in the multinational Consultative Committee for 
Space Data Systems, which is part of the International 
Standards Organization. A future space traffic management 
system can build on the technical confidence and the 
professional and civil agencies there, similar to what the 
International Civil Aviation Organization, ICAO, and the FAA do 
for air traffic management.
    In summary, the space enterprise is critical to the Nation, 
and its security is essential. It is on a declining trajectory, 
I believe, that puts the U.S. leadership at risk and requires 
sustained strategic leadership, investment and diplomatic 
initiative by the Administration and Congress.
    This concludes my remarks, and I look forward to your 
questions and discussion.
    Ms. Tauscher. Thank you, General.
    [The prepared statement of General Armor can be found in 
the Appendix on page 56.]
    Ms. Tauscher. Mr. MacDonald, in your testimony you observe 
that the debate the over the United States' Offensive-space 
capabilities has often resulted in simplistic answers on both 
sides of the question. Can you give the subcommittee a couple 
of examples where you think offensive capabilities are 
appropriate and, alternatively, where they may be 
counterproductive?
    Mr. MacDonald. Let me maybe take the second one first, if I 
may.
    Ms. Tauscher. Sure.
    Mr. MacDonald. My sense is that offensive capabilities are 
something that we should only do if there really isn't another 
approach to do it. The key goal, again, should be deterrence 
and stability in space.
    I came to the conclusion and my recommendation about 
offensive capabilities somewhat reluctantly, I must admit. When 
I started my study, I was pretty much thinking that wasn't a 
good idea, but I saw the need that we had--that we had to 
deter. But there are some ways that we could do that that I 
think would be counterproductive.
    To pick an extreme example, a nuclear burst up in the 
ionosphere or Lower Earth Orbit (LEO) would be a tremendously 
effective ASAT weapon, but it would have horribly self-
destructive, collateral side effects. So that would be going to 
one extreme.
    But areas where it might be, is if we had--and I listed in 
my report and, I think, in my full statement, at least seven 
conditions or requirements, and one very much would be that any 
effects should be temporary and reversible so that there is no 
physical damage--permanent physical damage, and that there is 
not a tremendous loss. Those satellites, as has been pointed 
out, can be extraordinarily expensive. But I think that if we 
need to respond to somebody else's first use, for example, I 
think that there could be merit, potential merit, in such 
capabilities.
    But again, the idea is that the effect should be temporary, 
not permanent. I would leave it at that, but we could talk more 
if you would like.
    Ms. Tauscher. Sure. Mr. Krepon, your testimony describes 
the national security benefits to the United States of 
establishing a space code of conduct. Could you expand on why 
you think it might be more appropriate to pursue the 
development of rules of the road rather than a formal arms 
control agreement banning destructive ASAT testing?
    Mr. Krepon. Madam Chairman, I don't think the two are 
mutually exclusive. I think one could go into a forum being 
open to both possibilities.
    The idea of an all-encompassing ban on weapons in space, to 
me, poses insuperable problems--problems of verification, 
problems of definition. But if I hone in on destructive effects 
against man-made objects in space, I may well need to invest, 
as General Armor has stated, in improving my ability to watch 
the heavens.
    But when there is a debris cloud where there was once a 
singular orbital body, I think we can reasonably infer that 
that body has broken up, and we have to figure out the reasons 
for it. And there will be preceding actions to help us come to 
a logical conclusion about why that orb has become a mutating 
debris cloud.
    So I would say let us be open to both, but a key element 
has to be debris. Whichever way you go, it has to be debris, 
which is why the notion of traffic management, collision 
avoidance is so essential at this moment in time. So the code 
of conduct piece that, I think, deserves a lot of attention is 
traffic management. If you will, we need an FAA-type body for 
space. Even if we hate the notion of a small international body 
dealing with this problem, the consequences of major debris 
events are so profound and so long-lasting that I hope we will 
be open-minded toward this.
    Now, one last point, and then I will shut up. The Bush 
Administration placed a lot of emphasis on bottom-up approaches 
to come up with rules of the road. I think this was part of the 
allergy to diplomacy. And we did succeed with a bottom-up 
approach that produced voluntary debris mitigation guidelines, 
and it was just--this deal was done just last year, was 
finalized, I think, in the United Nations (U.N.) General 
Assembly last year. It took 14 years to do that, 14 years to do 
that, during which the debris population doubled. That is the 
trackable debris population. The small stuff, which can also 
kill you, there is a lot more of it up there.
    Ms. Tauscher. Let me ask if you there is an analogy to a 
homeowners' association. Since we apparently think we all own 
it, that there would be clear guidelines. You know, you have to 
mow your lawn, you have to clean up after yourself, you are 
responsible for this. There is a sense of transparency.
    I think that there is an FAA piece here, because traffic 
obviously is a component of management. But what I hear you 
saying, I think, is that there is nothing mutually exclusive 
about codes of conduct and moving forward into some more formal 
agreements but, in the basics, you have to agree that you like 
the neighborhood, and you want to keep the neighborhood a 
certain way, very much like when you decide to buy in a 
neighborhood, you are meant to add value, not detract value.
    Mr. Krepon. If there are no rules, there are no rule-
breakers.
    Ms. Tauscher. That is very good. General Armor, in your 
testimony you recommend determined Science and Technology (S&T) 
investment and other incentives toward growing a robust United 
States commercial space industry. In this context, can you talk 
about how the United States should balance its responsibilities 
to prevent the export of sensitive technologies and the need to 
develop a globally competitive United States space industry?
    General Armor. Yes, ma'am, Madam Chairwoman. That is a very 
tough trade to make. We do need to be careful about technology 
transfer in general. We need to be precise in protecting 
critical technology proliferating to parties we especially 
don't want to have. But on the other hand, we need an open 
commerce, international commerce, because the world has gone 
global.
    Right now some of the--I believe some of the trade 
restrictions have prevented our own industry from expanding 
like it should. Our second- and third-tier parts vendors are 
basically dying right now. And, in fact, there was a recent 
article about counterfeit parts, that the National Aeronautics 
and Space Administration (NASA) is having engineers look, 
because we were having to import more overseas parts instead of 
our own. I think that traces back to some of our own trade 
restrictions.
    So, yes, we do need to be very careful and pick the regime 
on technology to protect, but industry moves very fast, and so 
I think we need a mechanism that keeps up with that technology 
and protects what needs to be protected.
    Ms. Tauscher. Thank you.
    I would like to turn to Mr. Turner, Ranking Member. The 
floor is yours.
    Mr. Turner. Thank you, Madam Chairman. Thank you again for 
your discussion. And one of the things that is really, really 
helpful is the concepts that we are dealing with in these 
policy discussions you so eloquently are able to describe. And 
I am going to ask you to embellish some of the discussion you 
have been having because I think it is real important. And as 
we do a forum like this, it is good to get from you the 
descriptions of these elements.
    When you are talking about a space weapons treaty versus 
rules of the road, many of you were discussing the issues of 
verification and definition. Could you embellish that for a 
moment so that people can get an understanding of what are some 
of the problems in verification and in definition? Because we 
know what the different areas that a satellite can be 
challenged with, and it would be great to hear your 
descriptions of those as we try to balance that issue of rules 
of the road versus space weapons treaty.
    Mr. Krepon, starting with you.
    Mr. Krepon. Yes. As Bruce has said, I can use a nuclear 
weapon to destroy satellites. In 1962, before a limited test 
ban treaty was completed by President Kennedy, we carried out a 
weapons test over one megaton that killed or destroyed every 
satellite that was in Low Earth Orbit. There weren't many, and 
they weren't all ours.
    We learned a very important lesson from that. So we can use 
nuclear weapons to kill satellites. We can use ballistic 
missiles if they have enough legs. So a Medium-range Ballistic 
Missile, an ocean-spanning ballistic missile can be adapted for 
use against satellites. Defense interceptors can be used, 
adapted, against satellites. We demonstrated that last year. 
Lasers, jammers, there are a lots of things out there that have 
vital military uses that can all serve as anti-satellite 
weapons.
    Do we ban them all? Do we prohibit them all? How do we 
verify if somebody is not hiding one in the basement?
    So this all-encompassing treaty may not be such a good 
idea.
    Mr. Turner. And in that we are a country that clearly, in 
the area of verification, we are going to comply, so we always 
have to have a concern as to what our ability is to verify 
others' compliance. Let us continue down the way as you talk 
about the issue of a space weapons treaty versus rules of the 
road, verification, and definition.
    Mr. MacDonald. If I could, picking up on what Michael was 
saying, I think the key thing here, and it is a problem the 
previous Administration did an excellent job of identifying, 
and that is I think that bans on weapons can be problematic, 
unlike, for example, an Intercontinental Ballistic Missile 
(ICBM) or strategic bomber or a missile-firing submarine, which 
are very big, and there are ways that we can monitor those.
    The kinds of things that could do--perform an anti-
satellite test first very often are smaller to begin with, and 
then because they are multipurpose, it is easy to claim that we 
didn't build it as an anti-satellite weapon, we built it for 
some other reason. But as Michael alluded to, actions in space 
are a lot more visible.
    I think a more productive approach to take is to seek to 
put constraints on harmful actions, not necessarily on weapons. 
To use maybe what is probably a bad analogy: under the right 
circumstances, guns are not illegal, but shooting somebody with 
a gun is. What is at issue is not the possession of the gun, 
but, rather, how it is used.
    So in the same way I think that the most productive 
approach from an arms control perspective would be one that 
seeks to inhibit or limit actions unless somehow there is 
something that is so big or prominent that you can address it.
    Mr. Turner. General.
    General Armor. Well, as Mr. MacDonald knows, I have had 
difficulty looking at space in the sense of nuclear deterrence. 
To me, space is by far a more conventional domain, not a 
nuclear one. So I have trouble with the nuclear analogy right 
off the bat.
    That said, defining an ASAT is very difficult; therefore, 
you know, doing some sort of treaty for no ASATs, I think, is 
unverifiable and not a productive path.
    If I can address one thing Mr. Krepon said, I do believe 
that it took a long time to get some of these earlier lower-
level agreements, but that was because there was no compelling 
reason. Now with some of the collisions and other things that 
have happened in space, that has stepped up tremendously. And I 
do believe that some of the rules of the road discussion that 
he is proposing would also help accelerate some of the more 
technical discussions as well. So I am in favor of that.
    I also agree with Mr. MacDonald that maybe treaties against 
harmful actions, not things, may be a more productive line of 
logic.
    Mr. Krepon. Mr. Turner, because we have all of these other 
latent capabilities to punish others in space, it seems to me 
we have an insurance policy, and we are not going to let go of 
that insurance policy. If we focus in on destructive methods, 
actions that produce debris clouds, we have an insurance policy 
against noncompliance. We can respond in kind, but we don't 
have to respond in kind.
    So I would urge you to be open to this narrow-banded 
approach, which is a verifiable treaty approach. The 
Administration may decide not to go there for whatever reason 
but, to me, it would be in the net interest of the United 
States to pursue this.
    Mr. Turner. Well, that takes me to the other area of your 
discussion, and the issue of deterrence, when you were 
discussing it. Yesterday, we had General Chilton, Commander of 
the U.S. Strat Command before us, and we were asking him, if 
someone attacks our satellite, what are the consequences? And 
you look at deterrents. There are two main components--there 
are other components, but two main components. And one is that 
there are consequences if someone should attack our satellite 
systems, and/or that there may be mechanisms whereby they might 
not be successful in attacking them. You can have defensive 
systems, or you can have just policies that indicate what the 
consequences would be.
    I would be interested in your discussion, Mr. Krepon. You 
started with the concept of deterrence isn't that effective. If 
you could just discuss a little bit on the concept of how you 
see--what are we not doing besides just diplomacy that we ought 
to be doing as you look at our space assets in the area of 
deterrence?
    Mr. Krepon. Just to be clear, I think deterrence is 
essential in space. We don't want people messing with our 
satellites, especially in crisis or when our troops are in 
harm's way. So deterrence is a key piece, and I am trying to 
argue that we have the means to deter, we have the means to 
punish. We can punish on the ground. We can punish in space. It 
is our choosing what works best for us.
    So please don't misunderstand me. Deterrence is crucial.
    How do we reinforce deterrence? General Armor has some 
excellent ideas. I don't know a single person in this field who 
is--maybe my knowledge is limited--but I don't know anybody who 
is arguing that we ought to invest hugely in a small number of 
wonderful satellites that can do everything. I don't think--
nobody is arguing that case.
    Mr. Turner. What I am interested in, what are we missing? 
If there are things that you think we need to be doing that we 
are not doing that would be significant, I would appreciate 
your perspective there.
    Mr. Krepon. The piece that is most missing, to my way of 
thinking, is better Space Situational Awareness. Who did what 
to whom? Who may collide with whoever else? And the diplomacy 
piece.
    Mr. MacDonald. To continue along that line, I agree. I 
think that deterrence, though, unfortunately from a doctrinal 
point of view, deterrence is missing. One thing when I was 
writing my report for the Council on Foreign Relations, I was 
searching. There has to be something in here about deterrence; 
I guess I am not looking in the right places. And I finally 
found an article that was written by one former Bush 
Administration person who was literally on the way out the 
door, retiring, worked as a Deputy Under Secretary of Defense. 
And I went to him and I said, where is this better developed? 
And he said, you are it. I practically fell on the floor. I 
could not believe it.
    I am not trying to tout myself, but he said on the inside, 
he didn't see any discussion of how deterrence works in space, 
how we would want to operate. If you take a look at space war 
games--I have heard that it is beginning to change a little 
bit--but if you ever take part in a war game, it is kind of a 
classic thing. There is always a phase of it that there is the 
crisis buildup, but everybody just wants to get through that to 
where the real action is, which is when the war starts. And I 
was saying, no, no, you want to focus on the crisis, because 
you want to try to avoid a conflict in space in the first 
place.
    So I think one of the things we crucially need is more 
development of what our doctrine should be in space and how 
does it work. What are the dangerous areas? What are the areas 
where there are opportunities? Which, by the way, is not to 
short what my colleagues have said; I think space intelligence 
is crucially important. Space Situational Awareness, we need to 
know what is going on.
    What does it say, for example, and Michael briefly alluded 
to it, the smallest objects we can reliably track are 10 
centimeters in diameter, yet people know that objects 1 
centimeter or more can be lethal to satellites, and there are 
17,000 or so pieces that are 10 centimeters in diameter. There 
are hundreds of thousands that are one centimeter or more. So 
there are hundreds of thousands of lethal objects growing at a 
rate of 10 percent a year whizzing around there, and we don't 
know where they are. I mean, I am just flabbergasted by that.
    There are technical approaches to deal with that, but--I 
know you hear this all the time--that takes resources, and 
somehow the requirement for that kind of Space Situational 
Awareness always seems to fall off the table, there are other 
priorities. And if we are experiencing one or two incidents a 
month now, imagine 25 years from now when we will be 
experiencing two or three incidents or four incidents a week, 
or even almost daily. So we need to be more active in those 
areas as well.
    General Armor. Yes, sir. One of the difficulties I have 
with talking about space deterrence is that none of our 
adversaries depend on space the same way we do. So I think Mr. 
Krepon was on the right track here about responding in kind. If 
they are attacked, responding in kind is probably going to be 
ineffective, so a deterrence regime would have to go beyond the 
space domain, I think, right off the bat.
    Let me say that another reason for an offensive space 
capability might be the converse argument, that if there was a 
potential adversary that held advantage over us in some other 
area, that we might want to respond out of kind with a space 
offensive capability. I am not advocating that. I am just 
saying that is in the realm of discussion here.
    As far as what we are not doing, I will go back and harp on 
the Space Situational Awareness and space intelligence again. I 
will foot-stomp on that. But the one I really want to get 
across, again, is that we are not organized to address the 
space domain. My beloved Air Force is focused on using space 
for military purpose. They are not really resourced or 
chartered to secure the space domain for all legal use. And it 
is sort of unfair at this point to hold them accountable for 
collisions or anything else because it is just not in their job 
jar.
    I think we need a strong executive branch national strategy 
that says, hey, look, securing the space domain for all legal 
use is an important part of our policy objectives, and here is 
the organization that I am going to hold accountable for seeing 
that it is done, and here is a budget, and, you know, work with 
the State Department so that we can collaborate with all of our 
international partners and allies and other space-faring 
entities.
    Mr. Turner. Thank you, Madam Chairman.
    Ms. Tauscher. Thank you, Mr. Turner.
    I am happy to yield five minutes to the gentleman from New 
Mexico, Mr. Heinrich.
    Mr. Heinrich. Thank you, Madam Chair.
    Mr. MacDonald--and forgive me, my voice is failing today--
but given the successful anti-satellite test from China, the 
unpredictability of the debris problem--or maybe I should have 
the predictability of the problem that debris creates, what 
kind of satellite replacement capabilities do we currently have 
in place? And can you speak to the importance and need for 
rapid reaction satellites or other--I think you used the phrase 
``backups''?
    Mr. MacDonald. Yes. My understanding of the kind of 
capabilities we have today, Congressman, fall into two 
categories. One is the backups on the ground, and the other is 
backups already orbiting in space. And I think that those are 
wise steps to take.
    There is an initiative called Operationally Responsive 
Space (ORS), which is another way to get things up quickly that 
might be damaged. The only drawback, everyone acknowledges, to 
Operationally Responsive Space is that satellites are 
expensive, of course, even the smaller, leaner ones, so it is 
not cheap to have a few spares hanging around in your 
warehouse. But nonetheless, when you think about how much value 
they deliver, steps like that are very good.
    I am worried about the--again, the growth of debris and 
other things that could pose a real threat to these. Another 
thing we need as well, is when a satellite is either injured or 
disabled, we need some mechanism or way that we learn that it 
is disabled or injured, some kind of self-awareness capability, 
if you will, on the satellite that can transmit back to Earth 
so that we know what is going on up there. Once again, we don't 
have that.
    And I take onboard what General Armor says about it is not 
in the Air Force's job jar. The problem is that it is not in 
anybody's job jar. God bless the Air Force, they have done a 
remarkable job just in letting people know what is out there 
that is 10 centimeters in diameter. The whole world can access 
this information on the World Wide Web. They not only can 
access it, they do access it, and operators overseas very much 
depend on it.
    So I think there are a number of steps that we can take, 
and we are taking, but I am not convinced so far that we have 
as much as we need.
    Mr. Heinrich. Thank you.
    General Armor, do you have any thoughts on the role of 
Operationally Responsive Space in sort of creating a resiliency 
in our entire system?
    General Armor. Yes, sir. I do believe that a responsive or 
smallsats are a part of the answer, but they are not a silver 
bullet. I mean, they are one part of making all of our 
constellations a little more robust so that there is a 
deterrent effect. You are not going to take it out with a 
single shot.
    Keep in mind that most of these smaller satellites are far 
less capable than the ones that they might replace. If you put 
these on orbit and had two or three or four flying, you make 
the targeting a lot harder and the payoff smaller if anybody 
attacks them. There are a number of trades that you can do 
here, and Operationally Responsive is one.
    Mr. Heinrich. Mr. MacDonald, I think you said earlier that 
there are some technical approaches to dealing with the--or 
potential approaches to dealing with the debris issue, and I 
don't want to mischaracterize what you said. But in addition to 
the need for a ban on behaviors that worsen the debris problem, 
are there--and what are they if there are--the technical 
approaches that might address moving the ever-growing problem 
with debris in the other direction?
    Mr. MacDonald. Well, this is a case where an ounce of 
prevention is worth a ton of cure, because it is very expensive 
to get a vacuum cleaner up in space. I was just over at the 
Defense Advanced Research Projects Agency (DARPA) a few weeks 
ago, and I was talking about concepts, and we were kicking a 
few back and forth, but we all agreed this would be very 
expensive.
    And so the whole emphasis--and here I will give the Bush 
Administration good marks--I think they were seized with the 
importance of the issue of debris. But we absolutely need to 
continue it.
    So most of the technical means I am thinking of really 
involve prevention as opposed to--I mean, I could talk about 
possible cleanup options, but it will be a long time before 
that becomes practical. And there are guidelines that we have 
worked out with other countries on how to minimize this.
    I was speaking--in fact, there was a wonderful event here 
about a year ago here in this building, I believe, and the 
chairman of the international group that coordinated space 
debris was there. And I asked him, I said--and the Chinese have 
been, to their credit, very active participants in this--and I 
asked him, how did the Chinese react after their space test? 
And he said, ``oh, they were very embarrassed.'' They were not, 
needless to say, informed about this, and, in fact, so much so 
that the Chinese basically--the next meeting was supposed to be 
in Beijing, and they suddenly became ill and deferred it for 
three months.
    So the Chinese can be good participants, but this was a 
case within China where the People's Liberation Army (PLA) was 
not talking to the others in the civilian side.
    Mr. Heinrich. You might say it is hard to use a vacuum in a 
vacuum.
    But to that point that you brought up about the Chinese, 
are we going to see--was that a case where the PLA just didn't 
think about the ramifications that that debris field might have 
on their own infrastructure?
    Mr. MacDonald. Well, I have heard some stories. I have had 
some interactions with the Chinese, and the story that I have 
heard that I put the most credibility by is that the scientists 
and engineers in the PLA who have been working on this have 
been working on it for a long time, and like scientists and 
engineers anywhere, they wanted to do the test to see if it 
worked, you know, one, because scientists and engineers like to 
do that; and secondly, they wanted to be able to justify all 
the money that they have been spending in this area.
    And they knew they had to tell--according to the story--
they had to tell the Foreign Ministry, so they did what any 
good bureaucrat would do--and remember, the Chinese invented 
bureaucracy 4,000 years ago, so they are really good at it--and 
that is, I am told that they informed the Foreign Ministry in 
advance about this, but they informed in such a technical, 
obscure way that nobody at the Foreign Ministry understood what 
they were being told. This allowed the PLA people to say, did 
you inform the Foreign Ministry? And they checked the box that 
said ``yes,'' but, in fact, nobody understood the significance 
of this.
    But I am told that, in fact, China was really shocked by 
the very strong worldwide reaction, and I think that kind of 
worldwide reaction had a beneficial effect. I don't think the 
PLA, in general, is as open to the rest of the world as other 
parts of the Chinese government are. So I think that--I hope 
that they have learned a good lesson, but we will have to see 
how that plays out in the future.
    Mr. Heinrich. Madam Chair, I yield back the balance of my 
time.
    Ms. Tauscher. Thank you, Mr. Heinrich.
    I yield five minutes to the gentleman from Texas, Mr. 
Thornberry.
    Mr. Thornberry. Thank you, Madam Chair.
    I appreciate the work that each of you has done to put more 
intellectual vigor and effort into space strategy and space 
policy.
    I am struck by Mr. MacDonald's comment that our strategy 
comes from our acquisition; basically we buy what we can and 
then figure out a strategy on how to use it, rather than 
getting the strategy first and having our acquisition come from 
there.
    So, General, I want to kind of get to a little more 
practical, I guess, because this committee, as well as the 
Intelligence Committee, at least has had a very difficult time 
with space acquisition and mounting costs and delays. And 
certainly the country's strategy comes, in part, from our 
inability to have a successful acquisition strategy.
    I know you talked about smallsats in previous answers, but 
give us some more assistance about how our government, our 
country, can do better on the acquisition side if we are going 
to have a strategy we still have got to implement.
    General Armor. Yes, sir. There have been some recent 
acquisition studies, and I don't recall who they were, I think 
Tom Young did one, and I think there was another one--I am 
sorry, I am at a loss to recall--that really covered those 
answers very well. And I am sorry, I didn't really come 
prepared to talk about that today.
    But from my view on the inside over the last 15 years, 
watching the professional acquisition corps and the scientific 
technical engineering and math-skilled people in the service 
and acquisition corps disappear in the 1990s, to me it was an 
inevitable result that we would have these kind of problems 
with our complex system acquisition not just in space, but 
across the board. And I think, sir, I will stop there.
    Ms. Tauscher. Mr. Thornberry, if you will yield, I think 
this is an excellent--as usual you come up with some of the 
best questions--I think this is an excellent question. I think 
what we would try to do is empower our staff to, at a minimum, 
if not a hearing, come up with a briefing where we could start 
to tease away some of this issue. I think you are right. We 
have been troubled for a long time trying to get the horse 
before the cart, and why don't we try to work with you on that. 
I think this is a very good level of interest on your part, and 
I know we all are interested in that.
    Mr. Thornberry. I appreciate it, Madam Chair.
    It does occur. As we were talking about strategy and space 
policy and what is possible with diplomacy and so forth, none 
of that is going to matter unless we can buy stuff on a 
reasonable time frame, and it is going to do what we want it to 
do. And we have enormous difficulties there, so I appreciate 
it.
    Mr. MacDonald, a while ago General Armor said, and I will 
paraphrase, we can't get into a tit-for-tat on ``your satellite 
versus our satellite'' because we are so much more dependent 
upon space than anybody else. Do you agree with that? And how 
does that help inform us on what deterrence means when we put 
it in--when it includes at least--not limited to, but includes 
a space context?
    Mr. MacDonald. Well, it is a very important point that 
General Armor makes and that you have repeated. I address this 
a little bit in the Council on Foreign Relations report. While 
it is true today that we depend far more on our space assets 
than other countries, China is generally considered to be 
moving up fast, and if this were a classified hearing, I could 
say a little more. But let me leave it to say there will come a 
time when China is going to be dependent on its space assets as 
well, and there would be more of that dynamic.
    But one thing about deterrence, and I will take onboard 
what Michael Krepon has said, that we should not, were any of 
our assets to be attacked, we should not feel constrained that 
the only way that we could respond would be relative to space. 
Sometimes, attacking U.S. space assets is called an 
``asymmetric attack'' because it would have a disproportionate 
effect on our force, but we should have our own asymmetric ways 
of attacking as well, of responding.
    But I think the whole idea that when you are dealing with a 
country like China, fortunately, while China is not exactly our 
best friend, we are not bitter enemies either. And we are 
almost getting to the point of such mutual dependency where 
neither one--the only issue where we could see coming to blows 
would be over Taiwan, and we are hoping, of course, that that 
is not going to happen.
    But I think the short answer is that we need not feel 
constrained to respond in ways related to space. But China is 
going to become a lot more dependent on space assets pretty 
soon, and that would provide a way of--offensive capabilities 
there would provide one way of deterring such attacks.
    Mr. Thornberry. I would just say I hope we don't limit our 
space policy to what China does and being responsive to them. 
They are not the only folks out there in the world. And just 
for me, I would want to be careful.
    Ms. Tauscher. Thank you, Mr. Thornberry.
    I am happy to yield to the gentleman from Rhode Island, Mr. 
Langevin, for five minutes.
    Mr. Langevin. Thank you, Madam Chair.
    Gentlemen, thank you. I appreciate your testimony here 
today.
    My question first is for Mr. MacDonald, and if this has 
come up already, I apologize. I came from another hearing a 
little bit late. Recently, the Chinese have announced that they 
plan to further develop their space program by building a new 
space station in 2011. As with our early program, China's is 
run through their military, and news reports have noted that 
the purpose of the station would be for scientific and military 
research.
    Do you think this is a move by China to increase their 
strategic military capabilities in space? And if so, what are 
the strategic implications for the U.S., our national security, 
and for the peaceful development of space? And as a follow-on 
to that, should the U.S. be moving more aggressively to bring 
China in as a partner in space exploration in an effort to 
dissuade them from focusing their efforts on military space 
technology, and what efforts could our Nation take to increase 
this cooperation?
    Mr. MacDonald. Thank you, Congressman. Two very good 
questions. Let me take the second one first.
    I think we should be actively exploring ways to cooperate 
with China wherever possible. Eleven years ago we had the 
problem of technology being transferred improperly to China, 
which led to a very strong response that we have now had for 11 
years. I have heard from a lot of people that say that our 
response was too strong, and that we ought to take another look 
at those restrictions that were placed on technology transfer 
and interaction with China, and let us hold to the ones that 
make sense, but either the ones that are outdated or just don't 
work, we should consider dropping or modifying so that we can 
interact with them more. China is not our enemy on this. I 
think we ought to see ways that we could bring them in, if you 
will.
    On the question of their proposed space station, we had 
seen this coming for some time. My take is that their space 
station itself would not pose an important strategic problem 
for the United States, but it would in the sense of what it 
signified that their capabilities would be and what they might 
be able to do, not with the space station itself, but with 
other systems they could develop.
    There are all kinds of technologies that might be relevant 
to capabilities that would be somewhat worrisome. Proximity 
operations; i.e., what do you do when you are very close to 
something? We heard this from the Soviets back in the ASAT 
discussions we had with them back in the late 1970s when they 
accused our space shuttle of being a potential anti-satellite 
weapon. We had to go around the mulberry tree on that one.
    The concern I would have is more the capabilities that such 
a space station would demonstrate that they have, rather than 
an intrinsic threat from the space station itself.
    Mr. Krepon. Sir, if I may add, the Chinese presence in 
space, not just with the space station, but their manned 
missions, makes them more vulnerable to the debris problem. We 
have had to change out the windows on the space shuttle over 70 
times because of very small debris hits, paint flecks that have 
left, thankfully, shallow craters on the windows of the space 
shuttle.
    So for whatever reason, the Chinese carried out the most 
irresponsible anti-satellite test the world has ever seen, 
which will endanger their space operations as well as their 
satellites.
    So I am of the view that it may be possible to carve out a 
zone of cooperation in this area, preventing debris-producing 
anti-satellite tests in the future.
    Mr. Langevin. This is maybe a good follow-on to my next 
question, Mr. Krepon. Unlike nuclear deterrence, space 
deterrence works on the principle of preventing the addition of 
weapons into space. With anti-satellite capabilities increasing 
worldwide, the U.S. clearly has the most to lose strategically 
and financially in the space arena, which is why I believe we 
have to ensure that space doesn't become a battlefield. And I 
believe that the solution lies in the whole-government approach 
to space security.
    So can you provide us with some specific steps that the 
U.S. can take to ensure that not only our interests are 
preserved, but that access to space for peaceful research 
remains open for the U.S. and other nations?
    Mr. Krepon. Well, the point Mr. Thornberry made, I think, 
is just foundational. If we can't get our act together to get 
the assets we need into space in a timely, cost-efficient 
manner, then we are just going to be scrambling. So that is 
just key.
    But we need to have a better sense of what is going on up 
there, especially with this debris population. We are the best 
in the world, but we are still deficient. And you will be 
making some investment decisions that matter with respect to 
Space Situational Awareness.
    And as I said, maybe before you came in, we have all sorts 
of ways to mess up satellites now. So that is part of the 
deterrence piece. But what we have been missing over the last 
eight years has been a reinforcing diplomatic piece, and I am 
hopeful that we will add that to the complement.
    Mr. Langevin. I agree. Thank you.
    Ms. Tauscher. Thank you, Mr. Langevin.
    I am going to yield to the Ranking Member, Mr. Turner, and 
then I am going to go to Mr. Lamborn.
    Mr. Turner.
    Mr. Turner. Thank you so much.
    I wanted to put a footnote down here that I appreciated the 
comments of General Armor and Mr. MacDonald concerning the 
industrial base and our ability to support it both on export 
restrictions and its impact and in our acquisition policies. 
Yesterday General Chilton raised the same issue with us, with 
Rick Larsen raising it as an important issue, and, of course, 
Mr. Langevin raising it today. This is an issue that the 
committee is interested in, and Madam Chairman has indicated an 
interest in. So I appreciate that you mentioned it as we go 
through our issues of vulnerability, because it is one that is 
important.
    Ms. Tauscher. Mr. Lamborn for five minutes, the gentleman 
from Colorado.
    Mr. Lamborn. General Armor, I would like to ask a question 
of you, but anyone else who wishes to comment is welcome to 
also. There are some commercial operators who provide things 
like optical imaging in the space architecture, and to some 
degree there are public and private partnerships going on, 
contracts where these optical images are being purchased. So 
with this growing commercial capability, I believe that there 
is less--that that is a way of sharing the risk and broadening 
out the risk, because private investors, at no cost to the 
taxpayer, are starting to put up satellites, and, even more so, 
that the military or Intelligence Community can directly use.
    So what do you see that the future should be for sharing--
for having these kind of partnerships in the future? And should 
that be part of our strategy to consciously and expressly rely, 
to some extent, on commercial operators?
    General Armor. Yes, sir, Congressman Lamborn. I generally 
agree with what you are saying. And my earlier testimony, I am 
an advocate for constructing a strong commercial space business 
in the United States. The methods that you are talking about 
are definitely a good way to do that. I mean, even when the 
government deployed the Global Positioning System (GPS), they 
had really no idea of all the commercial applications that spun 
off of that, and now it is part of our infrastructure.
    The imagery sharing, public-private financing, that is a 
way. I would find other incentives, whether it is tax breaks or 
whatever, to incentivize it even further. I know NASA is using 
the Commercial Off-the-Shelf (COTS) program to buy launch 
vehicles and other resupply. Yes, I believe that there is a 
broad spectrum of government-commercial practices and 
acquisition techniques that could help stimulate that.
    And if I could go back a little bit to Madam Chairwoman's 
analogy, to the homeowner analogy, you know, maybe part of the 
licensing process for the growing commercial business is that 
they take care of their own orbits, just like you have to clean 
your own sidewalks and make your neighborhood look nice, so 
that they would be held accountable, either by insurance or 
some commercial mechanism, or they would be penalized or fined 
if they mess up their orbital regime that has been assigned to 
them by the FCC or other government traffic management 
authority.
    I digressed a little bit there, but I think I answered your 
question, sir.
    Mr. Lamborn. Thank you.
    Either of you other two gentlemen?
    Mr. MacDonald. If I could just add to that a little bit, 
and I don't want to beat the homeowner analogy to death, but if 
you take one step up from that, I think if you were a small 
businessman, and you wanted to locate the town, you would want 
to make sure that it had appropriate police and fire 
protection, and sewage and water, and that sort of thing.
    In the same way, I think that the potential for the private 
sector in space is really exciting and, as General Armor said, 
it is amazing how the private sector has figured a way to 
leverage off the GPS satellites. But I think private operators 
would count on the fact that there is some basic infrastructure 
support, like the Space Situational Awareness, that they could 
inform private operators where the debris is, what to watch out 
for, and that there is kind of a kind of traffic cop role, the 
traffic management, so that they don't end up losing an 
investment, that kind of thing.
    But I think that there is--and that is a way in which 
government can be very helpful is in providing that basic 
infrastructure support to allow the private sector to go full-
speed ahead and take advantage of it.
    Mr. Krepon. Our Armed Forces never have enough pictures, so 
I am totally in support of this.
    Mr. Lamborn. Are there any policies that you would advocate 
to make sure that this happens, or should we just continue as 
we are now where it is pretty informal?
    General Armor. My understanding, and I am a year or so out 
of date, was that there already is policy that encourages the 
use of commercial systems. It has been a matter of, you know, 
implementing that policy. And I am back to my ``we need a 
national strategy and a mechanism to implement it'' argument. 
So----
    Mr. Lamborn. Thank you.
    Ms. Tauscher. Thank you, Mr. Lamborn.
    I am happy to yield five minutes to the gentleman from 
Arizona, Mr. Franks.
    Mr. Franks. Thank you, Madam Chair.
    May I go ahead and take this opportunity to congratulate 
you on the news that the Administration has tapped you for a 
very important position. I know that there is probably a lot of 
things to still do, and I don't even know what your own 
conclusions are, but it is certainly an honor for any Member to 
be tapped by a Presidential Administration for something as 
significant as that.
    Ms. Tauscher. Thank you, Mr. Franks.
    Mr. Franks. General Armor, following the Iridium satellite 
incidents, we were all impressed with the survivability of the 
Iridium constellation in terms of being able to function 
relatively uninterrupted, even with the loss of one of its 
members, as it were. I wonder, relating to our other defense 
satellites systems and constellations, do you think we have 
enough redundancy, or enough system redundancy, in some of 
those to accomplish the same thing, or is this something we 
should be focusing on significantly more?
    General Armor. I don't think we have robust enough 
constellations, and we are looking at gaps in many of our 
capabilities coming up. I wouldn't necessarily, you know, say 
that all of them could take the same approach that Iridium 
does. It has sort of a unique 66-ball satellite constellation, 
whereas with an imagery system, for example, you can't do it 
that way yet. Maybe in the future there may be a technique for 
a large, dispersed matrix kind of imagery approach to doing 
business, but that technology isn't here today.
    And some things are done at geostationary, where it is a 
different--you know, laws of physics in effect here. But the 
Iridium approach is effective, it is very robust, and you can 
have accidents, and it is commercially sound so they didn't 
upset too many customers, and they are happy with that.
    Mr. Franks. General Armor, I guess everybody probably asked 
you this already, but what is your assessment of the root cause 
of the February 2000 Iridium incident? What do you believe 
happened, and do you think it was preventable?
    General Armor. I guess, technically, it was preventable if 
we had assigned the resources and the intellectual capacity to 
do that. There is a law of large numbers in effect here. There 
is a lot of stuff out there, and statistics is going to get you 
at some point. Again, had we focused attention that particular 
conjunction, yeah, maybe we could have maneuvered that 
particular Iridium satellite. But it really was an outside 
event. I mean, it was a law-of-large-number event here.
    Mr. Franks. Mr. MacDonald, did you have a thought?
    Mr. MacDonald. Yes. One dimension of that is the Air Force 
does a wonderful job, as I said earlier, in putting information 
out about these 17,000 different orbiting objects, but it is 
not their job responsibility, and it would cost them a lot more 
money if they were to go through the complex calculations to 
try to figure out possibilities for collisions.
    Right now the policy--and I am not faulting the Air Force 
at all on this--is here is the information, but if you have a 
problem, you have got to figure it out. One possible service we 
could do would be to provide the kind of capability that would 
allow this--and the technical term for is it is ``conjunction 
analysis''--sounds like a grammatical term, but it is not--
basically where you would analyze to see where collisions might 
happen. But right now the Air Force isn't given the resources 
and doesn't do that kind of thing. And the Iridium people, for 
whatever reason, didn't figure it out, and so we unfortunately 
had this accident. But we did have the backup capability.
    And I wanted, too, just if I could, to take this chance to 
point out something that this committee did 16 years ago when, 
over the objections of the Air Force, it funded the Defense 
Support Program (DSP) 23, the last missile launch detection 
satellite, and said, no--Space-Based Infrared System (SBIRS), 
the new system, is coming online, but it may not come on as 
fast as we think. Guess what? It has not come on as fast as we 
thought, and so that DSP 23 satellite, it ought to have 
``Courtesy of the House Armed Services Committee'' on the decal 
on the side of it. And it was very thoughtful and a lot of 
foresight on the part of this committee to ensure that we have 
the backup for that absolutely crucial capability that our 
Nation depends on.
    Mr. Franks. Thank you.
    Mr. Krepon, I was impressed with your emphasis on the space 
junk, and I am wondering now--this is not one of my official 
questions--but when you are going to invent some type of a 
satellite that will come along in parallel orbit and pick this 
stuff up and load it and bring it back to Earth?
    Mr. Krepon. This stuff is traveling at 10 times the speed 
of a rifle bullet.
    Mr. Franks. I know it is. I am talking about a parallel 
orbit, just got to come alongside it.
    Mr. Krepon. Right now we have one proven method, and that 
is the atmosphere.
    Mr. Franks. We are looking for you to invent something.
    Mr. Krepon. Just let me tag on to your last question, Mr. 
Franks, because this may be a problem of the law of large 
numbers. But with every collision, the numbers grow big time. 
And I am not technically qualified here, but I have read people 
who are technically qualified who are warning us that we can 
expect a collision every couple of years now. So this is a 
serious problem.
    Mr. Franks. Thank you, Madam Chair.
    Mr. MacDonald. Just to build on that, the estimates I have 
seen is that the space debris is growing at about 10 percent a 
year. And if you just do the math on that, that is why I 
mentioned in my statement that 25 years from now the debris 
problem will be 1,200 percent greater than it is right now. And 
Michael is exactly right, the problem will be far worse. Some 
are worried that you could set up a slow chain reaction where, 
because a collision creates more debris, and you could get into 
a chain reaction situation if you are not careful.
    Mr. Franks. So an arithmetic addition of objects means a 
geometric increase in collisions, for example. Scary situation.
    Thank you, Madam Chair.
    Ms. Tauscher. Thank you, Mr. Franks.
    Gentlemen, let me thank you on behalf of the committee and 
the people that we represent, the American people, for your 
individual and collective service to this country, and 
especially your presence at the committee today. It is 
invaluable to us to have your expertise and your significant 
pedigrees.
    You always respond, and we can't thank you enough for what 
you do for the American people. It is very, very important 
work. Space, it is a big place cosmically and physically, and 
obviously we have some very, very important issues to work on 
to make sure that we get this right. You have aided us 
significantly today, and on behalf of my subcommittee, I want 
to thank you very much.
    And the subcommittee stands adjourned.
    [Whereupon, at 2:35 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                             March 18, 2009

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 18, 2009

=======================================================================


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                  <all>

</pre></body></html>
